=
IN

C@OCKLE

2311 Douglas Street Le ga 1 Brief s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-438

CLEMENTE AVELINO PEREIDA,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL
OF THE UNITED STATES,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF IMMIGRATION LAW PROFESSORS. AS AMICI
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ALINA DAS
Counsel of Record
NANCY MORAWETZ
WASHINGTON SQUARE LEGAL
SERVICES, INC.
245 Sullivan Street, 5th Floor
New York, NY 10012
(212) 998-6467
alina.das@nyu.edu

Counsel for Amici Curiae

Subscribed and sworn to before me this 4th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

General Notary 2 .
State of Nebraska : LS Qudraw-
My Commission Expires Nov 24, 2020 « *

Notary Public Affiant 39380

 

 
Service List for Amicus Brief in Pereida v. Barr

Counsel for Petitioner:

Brian P. Goldman

ORRICK, HERRINGTON & SUTCLIFFE LLP
405 Howard Street

San Francisco, CA 94105

(415) 773-5676

brian.goldman@orrick.com

Counsel for Respondent:

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
